Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
About
Hotline
Offices
Resources
Español
OIG
Home
Audit
Report - A-13-97-12014
Office of
Audit
Evaluation of the Social Security Administration`s
Back-up and Recovery Testing of Its Automated Systems - A-13-97-12014
- 9/24/97
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
RESULTS OF REVIEW
FURTHER
IMPROVEMENTS ARE NEEDED TO STRENGTHEN SSAS OVERALL RECOVERY
TESTING PROCESS
The
Application Test Objectives Were Not Completed
Only
6 of the 12 Critical Workload Areas Have Been Tested to Date
at COMDISCO
No
Documented Performance Standards Exist to Measure Stress Test
Results
Difficulties
in Establishing the Support Environment and Incompatibilities
between Different Facility Complexes Prevented the Successful
Completion of the MTAS Workload
Tapes
Sent to COMDISCO from the OSSF May Not Include All Critical Workloads
CONCLUSION AND RECOMMENDATIONS
APPENDICES
Appendix A - Critical Workloads
Appendix C - Major Contributors to this
Report
Back to top
EXECUTIVE
SUMMARY
OBJECTIVE
The objective of this audit was to observe and evaluate the testing
of the Social Security Administration`s (SSA) back-up and recovery
plan (BRP) conducted at COMDISCO from February 28 through March 2,
1997.
BACKGROUND
SSA is required by the Office of Management and Budget (OMB) Circular
A-130 to have in place a disaster recovery plan for its automated
systems. The recovery plan should be fully documented and periodically
tested. This report is the second report that focuses on SSA`s
disaster recovery planning. In the first report, we reviewed the
BRP document and other related areas and concluded that SSA had made
significant improvements since our prior review in 1984. We also
found that SSA generally was in compliance with OMB Circular A-130.
In this current report, we address the periodic testing of the BRP.
SSA operationally tests its recovery plan every 12 to 18 months.
The March 1997 test was the fourth opportunity SSA has had to test
its on-line environment at COMDISCO in North Bergen, New Jersey.
COMDISCO is a commercial recovery facility vendor that SSA has contracted
with to provide its disaster recovery support.
The primary objectives for this test were to re-establish data processing
and network environments, and test the functionality of a limited
number of on-line and batch environment applications. One field office
(FO) from each of six SSA regions participated in this test. The
applications tested were to:
Process initial title II claims through the Modernized Claims
System (MCS) and then run the batch jobs at night.
Process some critical payments through the Critical Payment System
(CPS) and run the batch jobs at night.
Process payroll through the Management Time and Attendance System
(MTAS).
Perform some on-line query responses.
In addition to the applications being tested, SSA performed testing
of the network to determine at what point the network began experiencing
significant processing delays.
RESULTS OF REVIEW
The March 1997 recovery testing at COMDISCO did not meet all of
its objectives. We believe the testing could have been more successful
if more time had been made available to solve the start-up problems.
Further improvements are needed to strengthen SSA`s overall
recovery testing process. Specifically, we found that:
THE APPLICATION TEST OBJECTIVES WERE NOT COMPLETED;
ONLY 6 OF THE 12 CRITICAL WORKLOAD AREAS HAVE BEEN TESTED TO
DATE AT COMDISCO;
NO DOCUMENTED PERFORMANCE STANDARDS EXIST TO MEASURE STRESS TEST
RESULTS;
DIFFICULTIES IN ESTABLISHING THE SUPPORT ENVIRONMENT AND
INCOMPATIBILITIES BETWEEN THE MANAGEMENT INFORMATION SERVICE
FACILITY (MISF) AND THE PROGRAMMATIC PROCESSING FACILITY (PPF)
COMPLEXES PREVENTED THE SUCCESSFUL COMPLETION OF THE MTAS WORKLOAD;
AND
TAPES SENT TO COMDISCO FROM THE OFF-SITE STORAGE FACILITY (OSSF)
MAY NOT INCLUDE CRITICAL FILES.
RECOMMENDATIONS
To improve the recovery testing process, we recommend that SSA:
Consider increasing the test time at COMDISCO from 3 to 4 days
to allow more time for technicians to solve start-up problems.
Develop a master application test plan so that all critical workloads
are tested on a cyclical basis. Plan to test the critical workload
areas that have not yet been tested. Increase the number of applications
being tested for the next test date.
Develop performance standards
and certify stress test results.
Correct the incompatibility problem to assure that all non-PPF
workloads will run at COMDISCO.
Continue to automate the back-up tape pick list process to select
tapes that are critical to the test.
SSA COMMENTS
SSA agreed with our report recommendations to strengthen the back-up
and recovery testing at COMDISCO. Appendix B of this report includes
a copy of SSAs comments to our report.
Back to top
INTRODUCTION
OBJECTIVE
The objective of this audit was to observe and evaluate the testing
of SSA`s BRP conducted at COMDISCO from February 28 through March
2, 1997.
BACKGROUND
On June 29, 1993, SSA contracted with COMDISCO in North Bergen,
New Jersey to provide SSA`s recovery support. The contract was
amended in November 1995 to include a COMDISCO satellite location
in Columbia, Maryland which would be used by SSA for test monitoring.
The March 1997 test was the fourth on-line testing opportunity SSA
has had at COMDISCO. SSA ran its first test on December 12-14, 1993.
As with any initial exercise, SSA had a few problems when starting
up. SSA gained more experience and expanded the test objective for
the August 12-14, 1994 test to include submitting transactions on-line
from various FOs directly to COMDISCO. This test was successful according
to SSA and demonstrated its ability to re-establish the full functionality
of the Agency`s mission to resume critical operations at an alternate
site. A test had been scheduled for June 2-4, 1995 but, because SSA
requested more direct access storage device (DASD) memory than the
contract called for, the test had to be postponed until January 1996
when more DASD became available at COMDISCO. The January 26-28, 1996
test was expanded to include not only the COMDISCO recovery facility
in North Bergen, New Jersey, but also the satellite site in Columbia,
Maryland for test monitoring by SSA.
For the March 1997 test, there were 34 recovery team members at
North Bergen and 21 members at Columbia. The primary objectives for
this test were to re-establish the data processing and network environments,
and test the functionality of a limited number of on-line and batch
environment applications. One FO from each of the six regions participated
in this test. The applications tested were to:
Process initial title II claims through the MCS and then run
the batch jobs at night.
Process some critical payments through CPS and run the batch
jobs at night.
Process payroll through MTAS.
Perform some on-line query responses.
In addition to the applications being tested, SSA`s Division
of Integration and Environmental Testing (DIET) performed stress
testing of the network to determine at which point the network began
experiencing significant processing delays.
SCOPE AND METHODOLOGY
We used several methods to gather evidence for our audit. We reviewed:
1. relevant documents, e.g., previous studies by the Office of
the Inspector General and others;
2. SSA`s January 31, 1996
BRP document; and
3.              SSA`s recovery test results documents
for tests conducted at COMDISCO during December 1993, August 1994,
and January 1996.
We observed the February 28 through March 2, 1997 recovery testing
at the COMDISCO facility in North Bergen, New Jersey and interviewed
SSA personnel who were at North Bergen, New Jersey and at the satellite
location in Columbia, Maryland. Field work was performed at SSA Headquarters
in Baltimore, Maryland and at COMDISCO in North Bergen, New Jersey
and Columbia, Maryland between March 1997 and April 1997. Our audit
was performed in accordance with generally accepted government auditing
standards.
Back to top
RESULTS
OF REVIEW
FURTHER
IMPROVEMENTS ARE NEEDED TO STRENGTHEN SSA`S OVERALL RECOVERY TESTING
PROCESS
The March 1997 recovery testing at COMDISCO did not meet all of
its testing objectives. The disaster recovery team (DRT) was able
to re-establish the data processing and network environments; however,
they were unable to complete the on-line and batch application testing
with the FOs. We believe that if the DRT had more time they could
have completed more objectives. Improvements are needed to strengthen
SSA`s overall recovery testing process.
The
Application Test Objectives Were Not Completed
This test produced several new circumstances described below which
resulted in an unstable operating environment when the applications
were being tested on Saturday, March 1. The unstable operating environment
was the result of the DRT not having enough time to resolve operating
and application start-up problems which were caused by the following
factors:
missing data files;
new release versions of several support software products being
introduced at the same time;
inexperience of new personnel; and
new hardware.
If the DRT had more time up front to solve the start-up problems,
we believe most of the test applications could have been successfully
completed on March 1. SSA`s dynamic data processing and application
environments are becoming more complex each year. Given these complexities
and interdependencies, we believe that regardless of the extent of
planning by the DRT there will always be the risk of unanticipated
start-up problems.
The window of opportunity for testing on-line applications is on
Saturdays when FOs are closed and the network can be switched over
to COMDISCO. Late Saturday and Sunday is used to execute the batch
systems, perform on-line maintenance, and purge the system of SSA
test data. The DRT needs an additional 24 hours up-front (start Thursday
at 8 a.m. rather than Friday at 8 a.m.) to resolve any operating
start-up problems so on-line application testing can begin on time
early Saturday morning.
Only
6 of the 12 Critical Workload Areas Have Been Tested to Date
at COMDISCO
After four testing opportunities at COMDISCO (December 1993, August
1994, January 1996, March 1997), only 6 of the 12 critical workload
areas have been tested. Of the six areas that have been tested, only
the on-line queries, processing title XVI claims and MTEXT workloads
have been totally successful. There was also limited success in processing
post entitlement events (for example, some applications have run
successfully while others have not.) See Appendix A for a list of
the 12 workload areas.
We believe the reason why only 6 workloads have been tested to-date
is because of incomplete planning by SSA for testing all the applications
in the 12 critical workload areas. Our conclusion is based on the
following points:
SSA does not have a multi-year (master) application test scheduling
plan to ensure that all critical workload areas are tested on a
cyclical basis; i.e. every 3 years. According to SSA, each test
plan stands on its own merit, which means the results from each
test have not been compiled for developing an overall application
testing plan schedule.
In our discussions with SSA, there were some inconsistencies
within SSA components as to what the critical workloads were within
the 12 workload areas. The inconsistencies in defining the critical
workloads indicate that planning needs improvement. For example,
we noted inconsistencies in the latest BRP document dated January
31, 1996 which identified the critical workloads. We questioned
why the 800-number system to schedule appointments and referrals
was listed as a critical workload in Appendix F of the BRP but
not listed in the executive summary as a critical workload. One
SSA component said it was a critical workload, while another said
it was not. In another example, we inquired why the MTEXT workload
which had been scheduled for the March 1997 test was canceled.
The reason given was because SSA now believes this workload is
not critical. Originally, it was believed that some new beneficiaries
would not get their checks unless the MTEXT notices were generated.
Better planning would have resulted in eliminating the MTEXT workload
from the critical workload list.
For the March 1997 recovery test, one application test objective
was to process title II claims through the MCS. However, not all
title II claims are processed through MCS. While all claims are
initiated through MCS, if MCS identifies exceptions (such as missing
Master Beneficiary Record data) the claim must then be processed
either through the Claims Automated Process System (CAPS) or through
the Manual Adjustment Debit, Credit and Award Process (MADCAP).
In February 1997, MCS processed 70 percent of the claims, CAPS processed
4 percent, and MADCAP processed 16 percent. Testing for only those
title II claims that could be processed through MCS overlooks about
30 percent of all title II claims.
Finally, SSA only has the opportunity to test every 12 to 18 months
at COMDISCO. Currently, SSA is testing between three and four applications
per test date. Testing a larger number of applications would be more
efficient.
No
Documented Performance Standards Exist to Measure Stress Test
Results
The purpose of stress testing is to determine the volume of transactions
at which the network would experience significant delays. These tests
are designed to simulate how the system will perform under actual
conditions with a high volume of transactions being processed at
one time. For this test, DIET officials said they were at about 350
transactions per second before the network began experiencing delays.
In comparison, we have been told that during the peak time for a
normal day, the National Computer Center (NCC) will process over
900 transactions per second. However, the DIET stress test results
cannot be measured since there are no documented performance standards.
Consequently, the SSA officials that we talked with could not explain
if this service performance level at COMDISCO would be acceptable
in a disaster situation. The results are not meaningful unless they
can be measured against a stated service performance standard.
Also, for the March 1997 test, the results (350 transactions/second)
that were achieved were based only on log on/off and query only transaction
profiles. The profiles used for the test excluded those transactions
that would have resulted in an action to update a data base. Since
this was not representative of a typical daily production transaction
mix at NCC, these stress results are even less meaningful. We were
told that not all transaction profiles could be used for this test
because of some technical limitations.
Difficulties
in Establishing the Support Environment and Incompatibilities
between Different Facility Complexes Prevented the Successful
Completion of the MTAS Workload
Most of SSA`s critical workload applications run in the PPF
complex environment; however, several applications run outside it.
Examples of these applications include Falcon, PSC/OCRO batch, and
MTAS which run in the MISF complex and VTAM and NETVIEW which reside
in the Network Management Facility complex environment.
For the March 1997 test, SSA tested the MTAS application at COMDISCO.
This was the third time the time and attendance application did not
meet all of the test objectives. One reason for the problem is SSA
has attempted to execute an MISF application in the PPF environment.
According to SSA officials, this presents a number of logistical
and technical problems, such as record blocking lengths, which to
date has made the MTAS application incompatible in the PPF environment.
Also, because most of the other non-PPF critical workload applications
have not been tested to date, SSA has no assurance these applications
will work.
Tapes
Sent to COMDISCO from the OSSF May Not Include All Critical
Workloads
Files to be sent to COMDISCO from the OSSF currently are judgmentally
selected from over 45,000 tapes at the OSSF. This process introduces
human error since all critical tapes may not be selected, thus losing
valuable time in a disaster recovery situation. This condition occurred
in the March 1997 test when several MTAS and IDMS files were missing.
While SSA has made some improvements in the development of the back-up
tape pick list, further automation of the process is still needed.
The recovery pick list should be automated since all the critical
workloads are known and all the files associated with these workloads
can be identified. The improvements that were made make the process
more flexible in that the pick list can be generated outside the
SSA complex. Prior to this improvement, the tapes had to be selected
by a person located in the NCC complex. The improvements permit the
Office of Systems Design and Development and the Office of Telecommunications
and Systems Operations personnel to select tapes from a remote site
using a lap top computer and a modem.
Back to top
CONCLUSION
AND RECOMMENDATIONS
The March 1997 testing at COMDISCO did not meet all of its objectives.
We believe the DRT could have been more successful if more time had
been scheduled to resolve start-up problems. The DRT was able to
re-establish the data processing and network environments; however,
they were unable to complete the on-line and batch application testing
with the FOs. Further improvements are needed to strengthen SSA`s
overall recovery testing process. Specifically, we recommend that
SSA:
Consider increasing the test time at COMDISCO from 3 to 4 days
to allow more time for technicians to solve start-up problems.
Develop a master application test plan so that all critical workloads
are tested on a cyclical basis. This should include a list and
description of all the workloads that would be done in each of
the 12 critical workload areas, when the workload was last tested,
the results, and when it is next scheduled for testing.
Plan to test the critical workload areas that have not yet been
tested. Also, for the next recovery test, SSA should increase the
number of applications tested.
Develop performance standards and certify the DIET stress test
results.
Benchmarking should be done at the NCC to establish an acceptable
service performance standard at COMDISCO.
Analyze the environmental incompatibility problem, determine
the best approach, and implement appropriate corrective action
to assure that all non-PPF workloads will run at COMDISCO.
Continue planning to automate the back-up tape pick list process
to select tapes. The personnel at the OSSF should be able to execute
an inventory selection program that would automatically generate
the back-up tape pick list.
SSA COMMENTS
SSA agreed with all recommendations and informed us that corrective
actions are being taken.
Back to top
APPENDICES
APPENDIX A
The following critical workloads were identified from page 8 of
the Social Security Administration`s January 31, 1996 back-up
and recovery plan for the National Computer Center.
CRITICAL WORKLOADS
1. Claims, where payment is due within 30 days.
2. Earnings records for disability cases so that development can
proceed on insured applicants.
3. Critical payments.
4. Process appeals with allowances.
5. Stop work reports.
6. Emergency enumeration requests.
7. Time and attendance systems for payroll.
8. Certification/accounting system for payments.
9. Interactive direct input for postentitlement events which affect
payment.
10. On-line queries.
11. Critical processing center workloads controlled by the Processing
Center Action Control System.
12. Critical incomplete notices processed through MTEXT.
To assist in processing critical workloads, the following systems
facilities will be available:
Administrative-related support facilities such as
TOP SECRET, NEWS, NETSTAT, and Model District Office informational
releases.
The Modernized OCRO System.
Falcon Data Entry Software and Program Service Center
Workloads.
Electronic mail, specifically cc-mail.
Back to top
APPENDIX
C
MAJOR CONTRIBUTORS TO THIS REPORT
Office of the Inspector General
Scott Patterson, Director, Evaluations and Technical Services
Bruce Daugherty, Audit Manager
Randy Townsley, Senior Auditor
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified